 AUDIT OF THE GUARANTEE PURCHASE 

PROCESS FOR SECTION 7(A) LOANS AT THE 

NATIONAL GUARANTY PURCHASE CENTER 


              Report Number: 7-23 

            Date Issued: May 8, 2007 

                                                                    Memorandum
             U.S. Small Business Administration
             Office Inspector General

    To: 	    Janet A. Tasker                                                                 Date:    May 8, 2007
             Acting Director, Office of Financial Assistance

             Jennifer E. Main 

             Chief Financial Officer 

             IS/ original signed 

  From: 	    Debra S. Ritt
             Assistant Inspector General for Auditing

Subject: 	   Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National .
             Guaranty Purchase Center
             Report No. 7-23

             This report presents the results of our audit of the guarantee purchase process for
             section 7(a) loans at the National Guaranty Purchase Center. The Small Business
             Administration (SBA) guarantees loans that are made by participating lenders and
             purchases the guarantees upon loan default. The guarantee purchase process
             involves a review of the purchase request and relevant documentation to evaluate
             whether the lender materially complied with program rules and regulations to
             determine whether to honor the guarantee. This review, which is intended to
             minimize erroneous payments, is generally performed before purchases are made
             but may occur post purchase when the loan has been sold on the secondary
             market. Prior Office of Inspector General (OIG) audits 1 found that the guarantee
             purchase process did not adequately protect SBA from making erroneous
             payments. To improve the quality of the purchase process, SBA centralized
             section 7(a) loan purchase reviews (excluding Express and Community Express
             loans) by establishing the National Guaranty Purchase center in Herndon, VA.

             The purpose of this audit was to examine purchase procedures used by the
             Herndon Center to determine whether they were effective in identifying lender
             deficiencies to prevent erroneous payments. We statistically sampled 58 loans

             1
                 Audit of the Guaranty Purchase Process, Report No. 3-15, March 17, 2003
                 Audit Report on Business Loan Guarantee Purchases, Report No. 7-5-H-0 11-26, September 30, 1997



                                                                       1

purchased for over $5 million from a universe of 1,803 loans purchased for
$214.5 million, which were reviewed by the Center between October 1, 2004, and
May 31, 2005. A listing of sampled loans is presented in Appendix I, and our
sampling methodology is provided in Appendix II. Lender files for three of the
sampled loans could not be located, and therefore, we relied on documentation jn
SBA's loan files to assess the purchase reviews of these loans. We reviewed SBA
and lender loan files and interviewed lender and SBA officials as necessary. We
conducted our audit at the Herndon National Guaranty Purchase Center from July
2005 to June 2006, in accordance with Government Auditing Standards prescribed
by the Comptroller General of the United States.

BACKGROUND
SBA is authorized under section 7(a) of the Small Business Act to provide
financial assistance to small businesses in the form of government-guaranteed
loans. SBA guarantees loans that are made by participating lenders under a
Guaranty Agreement to originate, service, and liquidate loans in accordance with
SBA rules and regulations. SBA, in its sole discretion, may purchase the
guaranteed portion of a loan at any time. Lenders may also demand in writing that
SBA honor its loan guarantee if a borrower is in default on any loan installment
for more than 60 days (or less if SBA agrees), and the default has not been cured.

In making the purchase decision, SBA reviews each request to determine whether
the lender materially complied with program rules and regulations. In the event of
noncompliance, SBA may be released from its liability on a loan guarantee, in full
or in part. If SBA has already purchased the guarantee from a secondary market
holder, it may seek recovery from the lender.

The guarantee purchase review is SBA's primary control for ensuring lender
compliance and preventing improper/erroneous payments. Improper payments are
expenditures that either should not have been made or were made in incorrect
amounts. Improper payments in the guaranty purchase process arise from the
failure of a purchase processor to identify material lender deficiencies in the
handling of an SBA guaranteed loan. Under the Improper Payments Information
Act, 2 SBA must annually examine and report the rate of improper payments. In
FY 2006, SBA estimated this rate to be 1.56 percent.

In recent years the volume of section 7(a) loans in SBA's portfolio has grown by
88 percent, from 51,667 in fiscal year (FY) 2002 to 97,291 in FY 2006. As of
September 2006, SBA' s section 7 (a) loan portfolio included 310,460 loans totaling
over $60 billion, with an SEA-guaranteed share of more than $42.7 billion.

2
    P.L. 107-300.



                                        2

The OIG has conducted several audits of purchased loans over the years and
reported that the guarantee purchase process does not adequately protect SBA
from making erroneous payments. To improve the quality, consistency and
timeliness of guarantee purchase decisions, SBA centralized the 7(a) guarantee
purchase process at the Herndon Center and implemented quality assurance
reviews. In FY 2006, the Center purchased 4,052 loans but, completed purchase
reviews of only 2,962, or 73 percent of the purchased loans. As a result, the
Center's post purchase review backlog increased by 1,090 during FY 2006.

SBA's purchase reviews have identified a number of recurring deficiencies in
lender compliance with SBA rules and regulations. These include the lender's
failure to: (1) verify the borrower's financial information using IRS Form 4506,
use of loan proceeds and equity injection; (2) request purchase of the guarantee
within 120 calendar days after loan maturity; (3) identify collateral at loan
inception; (4) obtain the proper lien position on collateral; and (5) perform a
timely site visit to properly inspect and secure collateral. SBA has provided
specific guidance to purchase reviewers to improve their evaluations of these
requirements.

RESULTS IN BRIEF

The audit disclosed that SBA purchased guarantees for 25, or 43 percent, of the 58
loans reviewed without adequately analyzing available documentation or obtaining
sufficient information needed to assess whether lenders originated, serviced and
liquidated loans in accordance with SBA requirements and prudent lending
practices. These deficiencies resulted in $904,901 of erroneous payments 3 on 17
of the 25 deficient loans, and another $290,807 in unsupported purchases. Based
on the large number of erroneous payments identified in our sample, we estimate
that SBA made approximately $36 million 4 in erroneous payments on loans with
purchase reviews completed between October 1, 2004 and May 31, 2005. This
equates to an improper payment rate of 17 percent, 5 which is significantly higher
than the 1.56 percent reported by SBA for all 7(a) loans in FY 2006.

Major deficiencies we noted that should have impacted SBA's purchase decision
involved lenders not:

    • verifying equity injection from the borrower;

    • adequately documenting the borrower's use of loans proceeds;

3
  Guarantee payment amounts identified by the OIG to be in excess of amounts lenders should have received. 

4
  This number was rounded. The projected amount is actually $35,643,334. 

5
  The improper rate of 17 percent was calculated by dividing the projected erroneous payments of $35,643,334 by the 

  $214.5 million purchase value of loans in the universe.                                                     ·



                                                        3

   • properly securing collateral; or

   • verifying borrower repayment ability.

These requirements are important controls to ensure that loan proceeds support .
viable, qualified businesses. Performing these steps not only helps validate the
viability of the business, it also helps prevent and detect fraud. For example,
borrowers are usually required to inject some of their own equity into the business.
A common scheme has been for borrowers to falsify documents showing their
equity injection. If the lender does not properly verify that the equity injection .
actually occurred, the business is denied the cash or asset it needed to operate. To
illustrate, a recent OIG investigation resulted in the arrest of 19 individuals
involved with SEA-guaranteed loans originated by Business Loan Express (BLX)
for allegedly defrauding SBA of over $76 million. According to accompanying
indictments, virtually all of these loans involved falsifying equity injections.
When lender documents do not adequately demonstrate compliance with SBA
requirements, requesting additional support for the areas of deficiencies can be an
important control in detecting fraud.

Staffing problems and an overly aggressive emphasis on expediting and increasing
purchase production at the Center has adversely impacted the quality of purchase
decisions. For example, the high rate of staff turnover in FY 2006 left the Center
with unfilled vacancies and largely inexperienced loan officers to review purchase
requests. Because supervisor vacancies were not filled, the Center had three
individuals to perform supervisory oversight of nearly 3,000 purchase reviews.
Consequently, supervisors either did not review purchase requests performed by
inexperienced loan officers or did not identify deficiencies the officers missed.

The level of erroneous payments will likely increase given that SBA has not fully
resolved staffing issues at the Center and has launched a major initiative to grow
the 7(a) loan portfolio by 15 percent in FY 2007. Increasing the guarantee loan
portfolio, without identifying how the existing and additional workloads will be
accommodated places government funds at increased risk.

Due to the inability of the Center to meet its purchase review demand, SBA is
considering streamlining the purchase review process by using a sample-based
approach to reduce the Center's current workload. However, purchasing
guarantees without reviewing them may expose the Agency to increased risk,




                                         4

especially on requests made by PLP6 lenders, as their credit decisions are not
subject to scrutiny until the purchase request is reviewed.

To mitigate the risk, SBA will need to (1) ensure that purchase decisions receive
the proper supervisory review, (2) employ a sampling plan that considers each
lender's performance, the volume and size of loans in lender portfolios, the risk of
loan defaults in each lender's portfolio, and the level of material lender
deficiencies noted in previous purchase reviews and is projectable to the lenders
universe of loans as a basis for repair of the guarantees for all of the lender's loans
in that universe, and (3) evaluate the quality of decisions made under the new
process to assess the level of risk associated with streamlining efforts and its
impact on the improper payment rate reported in the Agency's budget.

Management was generally non-responsive to the audit findings and
recommendations, neither concurring nor non-concurring with recommendations 2
and 6, disagreeing with recommendations 3 and 4 and concurring with
recommendations 1 and 5. Management believes that no additional actions were
needed beyond steps already taken to strengthen the guaranty purchase process as
it was significantly strengthened subsequent to the purchase of the audited loans,
and lender certifications for each purchase demand are unnecessary because
certifications are required in Loan Guaranty Agreements. Management's
comments are discussed in more detail in the Agency Comments section of the
report and the response is presented in its entirety in Appendix V. Our
corresponding comments are presented in the OIG Response section of this report.
We will pursue resolution of recommendations 2, 3, 4 and 6 through the audit ·
resolution process.

THE GUARANTEE PURCHASE PROCESS DID NOT DETECT
MATERIAL LENDER DEFICIENCIES

SBA' s guarantee purchase process did not identify material lender noncompliance
for 25 of 58, or 43 percent, of the loans reviewed. Deficiencies associated with 17
of the 25 loans resulted in erroneous payments totaling $904,901. Of this amount,
$850,279 was previously recommended for recovery in OIG reports issued as a ·
result of this audit, an additional $18,215 has been recovered as a result of our
audit and SBA's Quality Assurance Review (QAR) process, and $36,407 on 6
loans is recommended for recovery in this report. A summary of loans with
deficiencies is provided in Appendix Ill and a listing of the six loans we are
recommending for recovery and their deficiencies is provided in Appendix IV. ·

6
    The Preferred Lenders Program (PLP) streamlines the procedures necessary to provide financial assistance to the
    small business community. Under PLP, SBA delegates loan approval, closing, and most servicing and liquidation
    authority and responsibility to selected lenders that demonstrate a proficiency in processing and servicing SBA
    guaranteed loans.



                                                            5

The remaining 8 deficient loans had purchases totaling $290,807 that were not
supported by documents in SBA's files. However, we were able to obtain
additional documentation from the lenders to support SBA's purchase decisions.
When projected, the results show that 777 of the 1,803 loans in the universe had
purchase review deficiencies that resulted in $36 million of erroneous payments
being made to lenders over an 8-month period, October 1, 2004 to May 31, 2005.

As shown in Table 1 below, lender deficiencies that should have impacted SBA's
purchase decisions primarily involved inadequate or incomplete documentation
supporting equity injection, use of proceeds, collateral, and applicant repayment
ability. For example, the audit disclosed that SBA accepted inadequate evidence
to show that borrowers properly used loan proceeds on 10 percent of reviewed
loans and did not ensure that lenders properly inspected and secured collateral on
another 14 percent of the loans. We also found that SBA loan officers did not
always correctly calculate the purchase amount, identify early default and early .
problem loans, and reconcile lender and Fiscal Transfer Agent transcripts to
identify any differences, or properly determine the default date.




                                         6

                              Table 1. Material Deficiencies Noted on 25 Loans
                                                                                                   Projected
                       Description                           No. or
                                                                                                  number of      Projected $ value
                                                No. of    loans with   $value of    $value of
                                                                                                    loans in       of erroneous
                                               loans in   erroneous    erroneous   unsupported
  Type                                                                                            universe of       payments in
                                               sample      payments    payments    purchases in
                                                                                                   1,803 with         universe
                                                 of 58     in sample   in sample     sample
                                                                                                    purchase       ($ in millions)
                                                              of 58
                                                                                                  deficiencies
               SBA did not verify equity
  Equity       injection or did not obtain
                                                  7           4        $265,620     $150,745          218              $11
 Injection     proper documentation prior
               to disbursing loan proceeds.
               SBA accepted inadequate
               evidence or did not ensure
  Use of       lenders veri tied use of
                                                  6           3        $293,216      $89,547          186              $12
 Proceeds      proceeds before reimbursing
               borrower for evidenced
               expendi tu res.
               SBA did not ensure lenders
               provided an explanation for
               missing collateral, properly
Collateral                                        8           6         $72,902      $49,806          249               $3
               secured collateral, or
               proper! y abandoned or
               released collateral.
               Unsupported repayment
               ability, Poor borrower
               character, loan guarantor not
               taken, Form 912s not
Eligibility/
               obtained, no IRS                   4           2        $224,614         $0            124               $8
 Origin.
               verification, inadequate
               business evaluation and
               borrower charged an
               improper broker fee.
               SBA did not ( I) obtain
               legible credit documents
               when required, (2) identify
               early default/early problem
  Other        loans, (3) calculate the           13          6         $48,549       $709            404               $2
               proper purchase amount, (4)
               determine the correct default
               date, or (5) reconcile
               transcripts.

TOTALS                                          25*          17 *      $904,901      $290,807        777*               $36
* Some loans had multiple defictenctes

Our audit identified seven loans for which SBA did not properly assess lender
verification of equity injection. For example, one lender claimed that the required
equity injection was evidenced by bank statements from the operating checking
account for the business. However, the initial funds deposited into the account ·
were from loan proceeds; and therefore, did not provide evidence that the
borrower injected funds into the business prior to loan disbursement as required by
the loan authorization. On four of these loans, the deficiencies resulted in
erroneous payments totaling $265,620. When projected to the universe, we
estimate the Center did not enforce equity injection requirements for 218 loans,
resulting in $10.6 million of erroneous payments made to lenders during an 8­
month period.




                                                                  7

When lender documents do not adequately demonstrate compliance with SBA
requirements, requesting additional support for the deficient areas can be an
important control in protecting SBA from making erroneous guarantee purchase
payments and detecting fraud. By not securing the proper documentation, the
Center may have missed opportunities to prevent or recover improper
disbursements for lender noncompliance and to refer potential fraudulent activity
to the OIG for investigation.

Based on the high level of deficiencies we identified in the audit, we believe the
guarantee purchase process is susceptible to significant erroneous payments. In
FY 2006, SBA estimated the rate of erroneous payments at 1.56 percent.
However, this rate was calculated using a different sampling method than
prescribed by OMB in its current Improper Payment Information Act guidance, 7
As a result, the 2006 improper payment rate may not have been estimated at the
level of precision required under current OMB guidance. Because the Center's
guarantee purchases comprise a significant component of the improper payment
rate, and the rate of improper payments on the 7(a) loans reviewed was 17 percent,
SBA will need to more closely examine whether it is properly estimating
erroneous payments.

INADEQUATE CENTER RESOURCES CONTINUE TO IMPACT THE .
QUALITY OF PURCHASE REVIEWS

According to Center officials, lender deficiencies were not detected due to the
inexperience of purchase reviewers as a result of the high turnover of loan officers
at the Center. For example, in FY 2006, 10 employees resigned, retired or
transferred to other agencies, leaving the Center with between 19 and 24
employees during FY 2006 to process nearly 3,000 purchase decisions. 8

As the OIG reported in its FY 2007 Report on the Most Serious Management
Challenges Facing the Small Business Administration, adequate resources have
not been devoted to the 7(a) purchase process at the Center. The Center has
announced vacancies to hire additional loan officers and loan servicing assistants
and recognizes that the turnover of experienced loan officers has been a significant
challenge. To address this issue, in March 2006, SBA completed the Herndon
Work Process and Staffing Review that made several recommendations to remedy
staffing issues at the Center, including increasing the Center's staffing from 58 to
67 people. These recommendations; however, were contingent upon the Agency
obtaining approval of certain actions, such as increasing the loan officer pay
ladder to a GS-13, streamlining the purchase process by increasing the threshold


7
    OMB Circular A- 123, Appendix C. 

8
    During FY 2006, the Center received approximately 4,000 purchase requests, but only made decisions on about 3,000. 




                                                           8

for expedited processing, and using a sample-based review system. To date, none
of these actions have been approved.

Furthermore, supervisors were either not reviewing or were performing inadequate
reviews of purchase decisions made by loan officers. We identified numerous
instances where supervisors approved purchase reviews based on inaccurate or .
incomplete information. For example, on one loan, a supervisor did not identify
that the underwriting section of the purchase review template had been removed
by the loan officer, and for another loan a supervisor did not question the loan
officer's contradictory response to a question on the purchase review template.
The problems noted with supervisory reviews of loan officer purchase decisions
were also attributable to staffing shortfalls. The Center had five supervisor
positions in FY 2006; however, only three of these positions were filled for most
of FY 2006. Accordingly, three supervisors at the center had to review almost
3,000 purchase decisions. One Center employee we interviewed commented that
one of the supervisors approved purchase decisions without reviewing them, and
therefore, "rubber stamped" loan officer recommendations.

As SBA expands its loan portfolio, meeting the purchase review demand will
continue to challenge the Center's limited resources. Annual section 7(a) loan
production has grown from 51,667loans in FY 2002 to 97,291loans in FY 2006.
The Agency has also established a goal to increase its loan production by 15
percent by the end of FY 2007 without identifying the additional resources to
handle the increased loan production and resulting increases in purchase requests.

The Center's resources were further tested by aggressive timeframes established
for completing the purchase reviews. According to one Center employee, loan
officers were told to focus on quantity rather than the quality of the reviews.
During a prior audit, 9 SBA officials informed us that loan officers should be
completing an average of two purchases per day. Experienced loan officers
indicated that SBA' s expectation of two purchase reviews per loan officer per day
was unreasonable. One former SBA loan officer stated that it takes, on average, 2
days to perform a quality purchase review.

Due to the inability of the Center to meet its purchase review demand, SBA is
considering streamlining the purchase review process by using a sample-based
approach to reduce the Center's current workload. However, purchasing
guarantees without reviewing them exposes the Agency to increased risk,
especially on PLP loans. Under the PLP program, credit decisions by lenders are
not subject to scrutiny until the purchase request is reviewed. SBA's

9
    Manag ement Advisory Report on the Transfer of Operations to the National Guaranty Purchase Center, Report No.
    4-39, August 31 , 2004.



                                                          9

implementation of a sample-based approach for its purchase reviews would
require consideration of each lender's performance including ( 1) the volume and
size of loans in their portfolio, (2) the risk of loan defaults in the portfolio, and (3)
the level of material lender deficiencies noted in previous purchase reviews.
Furthermore, SBA must consider the ability to repair guarantees relating to the
lender's universe of purchased loans based on the projections of errors derived .
from the sample.

ADDITIONAL PROCEDURES COULD STRENGTHEN THE PURCHASE
PROCESS AND REDUCE IMPROPER PAYMENTS

While SBA revised its policies and procedures to ensure more consistent reviews
are performed by loan officers, the Center did not document the information they
relied on to reach purchase decisions. Current procedures require that loan
officers only complete a checklist to document whether the lender properly
originated, closed, serviced or liquidated the loan. As a result, supervisors did riot
have the information necessary to determine if loan officers properly verified
lender compliance with loan requirements. For example, SBA loan officers did
not explain their bases for concluding that lenders had verified that equity
injections specified in loan authorizations were made prior to the first
disbursement. Additionally, SBA loan officers did not explain their bases for
determining that collateral was properly liquidated. Consequently, there is no
assurance that purchase decisions were based on accurate and complete
information, thus increasing the potential for erroneous payments.

Under current procedures, lenders are not required to certify compliance with
applicable laws, regulations and policies when requesting purchase of guarantees.
OIG audits have found evidence that lenders knew they were not in compliance
with all SBA requirements when requesting purchase of guarantees and believed
SBA would not identify the deficiencies. To prevent this from occurring, SBA ·
should require lender certifications. Doing so would enhance lender
accountability and provide greater assurance that lenders request guarantee
purchases for only those loans that were originated, closed, serviced or liquidated
in accordance with SBA requirements.


CONCLUSIONS

Due to the high number of deficiencies identified, we believe the guarantee
purchase process was not effective in identifying lender noncompliance with SBA
lending requirements and that the Center was clearly unable to meet its purchase
review demand. With the continued growth in the number of 7(a) loan approvals
spurred by the Agency's 2007 initiative to grow the loan portfolio by 15 percent,


                                           10 

SBA can expect a growth in 7(a) purchase requests from lenders. However, it has
not determined how it will meet current purchase demands nor has it identified the
staffing levels required to accommodate the growth in the loan portfolio.
While SBA is attempting to address its resource issues and accommodate the
expected growth in guarantee purchases by considering a sample-based approach
to reduce the Center's workload, SBA's approach may expose the Agency to
higher risk and more significant levels of erroneous payments, unless it ensures
adequate safeguards are in place. If SBA can perform more thorough reviews on
selected purchase requests, a sample-based approach could work. SBA' s sampling
plan, however, will need to consider each lender's performance, including the
volume and dollar value of loans in their portfolio, the risk of loan defaults, and
the deficiencies identified in previous lender purchase reviews. Furthermore, the
dollar value of errors found in the sample will need to be projectable to the
lender's portfolio as a basis for recovery for all loans in the lender's universe. It
will also need to ensure that purchase decisions receive the proper supervisory
review. As an alternative, SBA could explore processes to segment loans into risk
categories and scrutinize loans based on risk. While all loans would receive some
level of review, the riskier loans could have sufficient time and effort devoted to
provide reasonable assurance that the guarantee payment was proper.

Further, we believe it is management's responsibility to properly determine the
level of risk associated with the purchase review process and to accurately report
this risk in both its A-123 report on internal controls and its estimate of improper
payments in the Agency's budget. Based on the 17 percent improper payment rate
and projected $36 million of erroneous payments identified in our audit, we
believe adequate safeguards currently do not exist to combat this risk. Therefore,
SBA will need to ensure it has adequately assessed the level of risk in the purchase
review process in its A-123 assessment for 2007, and address how streamlining
efforts will impact controls over this process.

Finally, because the process SBA used for estimating erroneous payments in 2006
may not have generated the level of precision required in OMB guidance, SBA
should revise its sampling plan for FY 2007 to ensure compliance with OMB
requirements. If SBA's 2007 rate of improper payments is significantly higher
than previous reported, SBA will need to implement a plan to reduce erroneous
payments, and report this information in its Performance and Accountability
Report in accordance with OMB Circular A-123 Appendix C.




                                         11 

RECOMMENDATIONS

We recommend that the Acting Director, Office of Financial Assistance:

1. 	 Seek recovery of $36,407 on the guarantees paid on the 6 loans listed in
     Appendix IV.

2. 	 Develop a plan to improve the quality of purchase reviews performed by the
     National Guaranty Purchase Center and ensure purchase decisions undergo
     adequate supervisory review.

3. 	 Revise the purchase review template to require loan officers to list the
     supporting documentation relied upon when making their guarantee purchase
     decisions, and ensure the template is "write-protected" to prohibit unauthorized
     modification.

4. 	 Require lenders to submit certifications of compliance with applicable laws,
     rules and regulations with each purchase demand.

5. 	 Revise the sampling plan for calculating the rate of improper payments in FY
     2007 to ensure OMB sampling requirements are met.

We recommend that the Chief Financial Officer, in conjunction with the Associate
Administrator for Capital Access:

6. 	 Include in its A-123 report on management controls the level of risk associated
     with the purchase review process and describe the risk in reporting its estimate
     of improper payments in the Agency's budget.

AGENCY COMMENTS

The Agency provided written comments on a draft of this report. These comments
are summarized below and the full text of the comments can be found in Appendix
V. Management agreed with recommendations 1 and 5, disagreed with
recommendations 3 and 4 and neither agreed nor disagreed with recommendations
2 and 6. However, management provided responses to recommendations 2
through 4 indicating that no additional actions were needed beyond steps the
Agency had already taken.

Management was unclear as to whether it agreed with recommendation 2 that a
plan be developed to improve the quality of purchase reviews by the Center and
that purchase decisions undergo adequate supervisory review. Management stated
that significant changes have been implemented to strengthen the purchase review


                                         12 

process since the audited loans were purchased. The changes described included
adding Senior Loan Specialists to the staff, standardizing documentation that
lenders are required to provide with the purchase package, creating a data base of
lender deficiencies in purchase packages, bar-coding purchase packages and
having administrative staff review the initial purchase package for completeness of
documents needed to conduct a review.

Management disagreed with recommendation 3 that the purchase review template
be revised to require loan officers to list the supporting documentation relied upon
when making their guarantee purchase decisions, and that the template be "write­
protected" to prohibit unauthorized modification. Management stated that the
existing 327 action form is adequate to document the purchase recommendation,
legal concurrence and final approval. In addition, management noted that the
Center has developed new Tabs for use by the lenders in an effort to standardize
the documents reviewed during the purchase process. Management believes this
enhanced system should improve the overall quality of the purchase packages and
the purchase reviews as well as make it easier to track the supporting
documentation received from lenders.

Management also disagreed with recommendation 4 that lender certifications of
compliance with applicable laws, rules and regulations be required with each
purchase demand. Management stated that a Loan Guaranty Agreement (Deferred
Participation), SBA Form 750, must be executed between the lender and SBA for
a lender to participate in the 7(a) loan program. This agreement requires the
lender to certify that the loans have been disbursed and serviced in compliance
with the agreement and all applicable rules and regulations. Management believes
this certification addresses the recommendation.

Management was unclear as to whether it agreed with recommendation 6 that the
level of risk associated with the purchase review process be included in SBA's A­
123 report on management controls and that the risk be described in estimating
improper payments in the Agency's budget. Management stated it will work with
the Senior Assessment Team to identify what is most appropriate to include in the
A-123 report on management controls.

Management also commented on the audit methodology used in developing the
audit findings. For example, management took exception with the statistical
sample we used because it was not representative of the 7(a) portfolio. Agency
comments also indicated that comparing the improper payment rate for FY 2006 to
the rate we calculated for the audit period does not allow for a fair and equitable
comparison and conclusion. Additionally, management disagreed with the
anecdotal comments in the report regarding the management of the loan guaranty



                                         13 

purchase process. Management did not believe the comments were backed up by
any audit findings and are simply a recitation of comments made to auditors.

OFFICE OF INSPECTOR GENERAL RESPONSE

The actions being taken by SBA on recommendations 1 and 5 are responsive to
our recommendations. However for recommendation 1, we believe the Agency·
should set a target date for completing the review of the 6 loans and recovering
any guarantees paid to the affected lenders, as appropriate.

Management comments were not responsive to recommendation 2. According to
management, significant changes have been implemented since the audited loans
were purchased to strengthen the purchase review process. The Center has
developed a set of self-guided tabs to guide lenders step by step through the
documents needed for a proper guarantee purchase review, added additional loan
specialists, and created a database of lender deficiencies among other things.
While these steps will improve the quality of purchase reviews, we do not believe
they are sufficient to fully address lender deficiencies. For example, SBA has not
addressed how it will ensure that purchase decisions undergo adequate supervisory
review. Also, at SBA's April2007 Management Meeting, the Agency
acknowledged that 90 percent of guarantee purchase requests still lack some
required documentation and charged the Office of Capital Access to develop a
plan for improving the process by the end of April. We believe that the plan,
which we recommended be developed, will address the recommendation.
Therefore, we are requesting that management send us a copy of the plan to close
the recommendation, and plan to pursue this action through the audit resolution
process.

Management's comments were not responsive to recommendation 3. The
comments did not address the issues of requiring loan officers to identify the
supporting documentation they relied upon in making a guarantee purchase
decision or ensuring write-protection of the template. Management indicated that
action has been taken to standardize the documents reviewed during the purchase
process through development of new Tabs for lenders in preparing their purchase
packages. While this process should improve the purchase documentation
received from lenders, it will not result in implementation of the recommendation.
To enable supervisors to adequately review a loan officer's purchase decision, the
documentation used in making a purchase decision should be specifically
identified. Likewise the template should be "write-protected" to prevent loan
officers from making unauthorized changes. This recommendation will be
resolved through the audit resolution process.




                                        14 

Management's comments were also not responsive to recommendation 4.
Management stated that the Loan Guaranty Agreement requires the lender to
certify that a loan has been disbursed and serviced in compliance with the
agreement and all applicable rules and regulations, which satisfies the
recommendation. The Loan Guaranty Agreement states that the lender's written
demand that SBA purchase the guaranteed portion of a loan serves as the lender's
certification that the loan has been disbursed and serviced in compliance with this
agreement. Audits have continually shown that lenders have submitted guarantee
purchase demands for loans that did not comply with laws, rules, and regulations,
and that SBA has paid many of the guarantees. Requiring lenders to certify that
they have complied with laws, rules and regulations on each guarantee purchase
request should result in lenders demanding purchases of only those loans for
which they have complied with all laws, regulations and rules. More importantly,
by certifying compliance on each purchase demand, lenders acknowledge that if
SBA finds noncompliance, SBA may repair or deny the purchase request. We
plan to pursue a management decision on this recommendation through the audit
resolution process.

Management's comments also were not responsive to recommendation 6.
Management stated it will work with the Senior Assessment Team to identify what
is most appropriate to include in the A-123 report on management controls.
However, it did not specify the actions it will take to properly determine the level
of risk associated with the purchase review process and accurately report this risk
in both its A-123 report on internal controls and its estimate of improper payments
in the Agency's budget. Consequently, we plan to pursue resolution of this
recommendation through the audit resolution process.

Management also commented on our audit methodology. For example,
management took exception to our statistical sample of loans stating that because
38 percent of the loans in the sample were Low Doc loans, the sample does not .
reflect the nature of the current 7(a) portfolio. We recognize that the number of
Low Doc loans in the current portfolio has decreased because Low Doc loans are no
longer a delivery method for the 7(a) program. Our sample was representative of
the 1,803 loans purchased by the National Guaranty Purchase Center from October
1, 2004, through May 31, 2005. A review of the delivery method for each loan in
the universe showed that 695, or 38.5 percent of our sample, were Low Doc loans.
However, 80 percent of the dollar value of the lender deficiencies cited in the
audit were associated with other loan delivery methods and were not Low Doc
loans. Furthermore, the purchase process is the same for all loans with a principal
balance of more than $10,000, regardless of delivery method.

Management acknowledged that the guarantee purchase process represents a
critical internal control that requires improvement, but stated the FY 2006


                                        15 

improper payment rate of 1.56 percent, which is based on the period July 1, 2005,
through June 30, 2006, cannot be compared to the audit results which reflect
guarantee purchases in FY 2005. As indicated in the report, we cannot conclude
that the FY 2006 improper payment rate was erroneous because it considered
guarantee purchases for loan delivery methods, such as Express Loans, which
were not included in our audit. However, the significant difference between the
two percentages (17 versus 1.56 percent) also cannot be ignored as it may indicate
that SBA's FY 2006 reported amount is inaccurate. Furthermore, as noted in the
audit report, the FY 2006 estimate of improper payments was calculated using a
different sampling method than prescribed by the Office of Management and
Budget. Consequently, we believe that the report accurately portrays the
possibility that SBA may have understated the improper payment rate for FY
2006.

Management also commented that staff remarks regarding management of the
guarantee loan purchase process were anecdotal and do not appear to be supported
by audit findings. We would like to emphasize that the audit was conducted in
accordance with Government Auditing Standards, which recognize testimonial
evidence as relevant and competent support for audit findings and conclusions.
Since the testimonial evidence was provided by experienced loan officers who
gave consistent responses, and the Agency has never performed a workload
analysis to determine the amount of time required to complete a purchase review,
we consider their responses to be a relevant and competent source of evidence
appropriately included in the audit report.

ACTIONS REQUIRED

We are requesting that the Acting Director, Office of Financial Assistance provide
the Office of Inspector General a target date for implementing recommendation 1
no later than May 30, 2007.

We appreciate the courtesies and cooperation of the Small Business
Administration representatives during this audit. If you have any questions
concerning this report, please call me at (202) 205- [Exemption 2] or Robert
Hultberg, Director, Credit Programs Group, at (202) 205- [Exemption 2] .




                                       16 

APPENDIX I. SAMPLED LOANS 


             Loan                                                Amount
    #       Number   I   Borrower           Loan Type   Disbursed    Purchased 1
    I                                          PLP        $ 120,000     $ 102,489
1--­
    2                                        Low Doc       $57,000       $29,069
1--­
_l_                                          Low Doc       $28,000         $7,753
                                               PLP        $132,000       $70,5 16
-4
                                               PLP        $ 158,000      $51,734
- 56                                         Reg 7(a)     $257,000      $ 124,774
-7                                           LowDoc        $39,998       $26, 143
-8                                           Reg 7(a)     $300,000      $ 162, 107
-9
-10         [Exemption 2, 4    &    6]       LowDoc       $ 100,000        $5, 157

-It                                          Reg 7(a)
                                             Reg 7(a)
                                                          $200,624
                                                          $865,000
                                                                         $74,933
                                                                        $322,465
-   12                                       LowDoc        $40,000       $28,004
-....!1._                                      PLP        $365,000      $257,743
....!!..                                       PLP        $500,000      $377,802

-,.._
  15
  16
                                               PLP
                                               PLP
                                                          $200,000
                                                          $367,000
                                                                         $36,797
                                                                        $257,723
,.._
  17                                           PLP        $ 129,300     $ 111 ,94 1
    18                                       LowDoc        $66,395       $42,172
1--­
    19                                       Reg 7(a)     $ 100,000      $77,5 13
1--­
                                             LowDoc                      $20,232
~                                                          $95,000
    21                                         PLP        $299,000      $ 167,518
1--­
    22                                       Low Doc      $ 150,000      $82,780
1--­
                                             Reg 7(a)     $ 11 2,475     $27, 168
~
                                             Reg 7(a)                   $3 17,973
~                                                         $480,000
                                             Low Doc                     $27,84 1
~                                                          $77,800

~                                            Low Doc       $37,000       $ 16,785
    27                                       LowDoc        $40,545       $21,573
1--­
    28                                       LowDoc       $ 150,000     $1 18,635
1--­
    29                                         PLP        $200,000        $5 1, 114
1--­
r1Q_                                         Reg 7(a)      $28,500        $ 16,936
    31                                       Reg 7(a)     $258,000      $ 175,843
1--­
                                               PLP
r-B­                                                      $483,000
                                                           $30,000
                                                                        $228,725
                                                                          $ 15,44 1
.12.._                                          GP
.1!.                                         LowDoc       $ 147,985       $32,370
~                                            Reg 7(a)     $148,100        $59,720
~                                            LowDoc        $35,000        $ 11 ,002
.]]_                                           PLP        $ 128,400       $37,525
~                                            LowDoc        $44,600            $829
                                               PLP        $494,30 1       $47,806
- 39
    40                                       Reg 7(a)     $288,075        $55,196



                                     17 

APPENDIX I. SAMPLED LOANS 


              Loan                                                                                  Amount
  #          Number                         Borrower                      Loan Type        Disbursed    Purchased 1
 41                                                                          PLP             $204,500      $142,156
r--­
 42                                                                          CLP              $700,000      $65,942
r--­
 43                                                                        Low Doc             $96,700      $65,819
r--­
 44                                                                        Reg_ 7(a)          $100,000           $0
r--­
~                                                                            PLP             $240,000      $163,535

~                                                                            PLP            $1,155,000     $207,463
 47                                                                          PLP              $310,000      $31,310
r--­
 48                                                                        Low Doc            $150,000      $35,265
r--­
 49
          [Exemption 2, 4                           &    6]                  PLP              $103,800      $64,122
r--­
 50                                                                        Low Doc           $150,000      $108,017
r--­
 51                                                                        Low Doc             $97,000      $64,257
r--­
 52                                                                        Low Doc             $61,000      $50,731
r--­
 53                                                                        Low Doc            $100,000      $31,869
r--­
 54                                                                          PLP              $280,000     $116,919
r--­
~                                                                            PLP              $750,000     $325,885
~                                                                            PLP              $265,000     $128,331
.22_                                                                       Low Doc             $45,625           $0
 58                                                                          PLP               $72,000      $50,158
              Totals                                                                       $12,633,723   $5,351,626


 1
     Amount purchased is rounded to the nearest dollar and does not include adjustments for recoveries received or
     expenses, such as legal fees, incurred after purchase.




                                                             18 

APPENDIX II. 	STATISTICAL SAMPLING PROCESS AND PROJECTION
              RESULTS

The universe consisted of 1,803 loans with purchase reviews completed by the National
Guaranty Purchase Center from October 1, 2004 through May 31, 2005. From the
population universe provided by the National Guaranty Purchase Center, we selected a
statistical sample of 58 loans to evaluate the purchase process. In statistical sampling, the
projected estimates in the population universe have a measurable precision or sampling
error. The precision is a measure of the expected difference between the value found in
the sample and the value of the same characteristics that would have been found if a 100
percent review had been completed using the same techniques.

Sampling precision is indicated by ranges, or confidence intervals; that have upper and
lower limits and a certain confidence level. Calculating at a·90 percent confidence level
means the chances are 9 out of 10 that, if we reviewed all of the loans in the total
population, the resulting values would be between the lower and upper limits, with the
population point estimates being the most likely amounts.

Using the Defense Contract Audit Agency's 'EZ Quant' software program, we
determined based on the universe size, a confidence level of 90 percent and a 10 percent
error rate, that a sample size of 58 loans was required. We used IDEA (Interactive Data
Extraction and Analysis) software to select the sample records from the universe.

We calculated the following population point estimates and the related lower and upper
limits using the Defense Contract Audit Agency's 'EZ Quant' software program's ratio
method at a 90 percent confidence level.


                              Occurrences in          Population
                                Sample of               Point         Lower         Upper
              Value             58 Loans               Estimate       Limit         Limit
   Loans With Purchase
                                    25                   777           581           984
   Deficiencies
   Equity Injection                  7                   218            106          384
   Use of Proceeds                   6                   186            85           348
   CollateraVLiquidation             8                   249            130          422
   Eligibility/Loan
                                     4                    124           45           269
   Origination
   Other Issues                      13                   404           251           597
   Improper Payments                 17               $35,643,334   $19,066,957   $52,220,610




                                               19 

APPENDIX III. LOANS WITH DEFICIENCIES 


                                                                                  Deficiency            Purchase            Purchase
           Loan                                                 Amount               Type               Amount               Decision
   #      Number                     Borrower                  Purchased 1       (See Legend)         "Questioned"2       "Unsupported"3
,____!_                                                         $102,489             C, E                $7,578 4
~                                                                $70,516               c                     $0                $2,000
                                                                                      A,D
r-l-                                                            $124,774                                     $0               $100,000
J_                                                               $26,143              A,B                $26,143
2-­                                                              $74,933               E                  $624 4
   6
1---­
                                                                $322,465              A,E                    $0                $50,745
~                                                               $257,724               B                $256,933
~                                                                $42,172               B                 $28,660
~         [Exemption 2, 4 & 6]                                  $167,518            A,D,E               $183,297
JQ_                                                              $82,780              A                  $82,411
J_!_                                                             $27, 168             E                      $0                   $0
J1_                                                             $317,973              E                  $31,463
~                                                                $27,841              B                      $0                $15,000
Ji_                                                              $16,785            A,C, E               $2,840 4
  15
1---­
                                                                 $21,573               c                 $4,746 4
~                                                               $175,843              B,E                $1 ,273 4             $59,156
                                                                $15,441                B                     $0                $15,391
r---!2­
~                                                               $47,806                c                     $0                $47,806
J2_                                                             $55,196                E                 $12,368
22­                                                             $142,156            A, C,D              $141,689
~                                                               $163,535               c                $19,346
                                                                                                                  4


~                                                                $35,265              C, E               $22,000
~                                                               $31,869                E                  $2,213
2!­                                                             $325,885              D,E                $81,317
  25                                                            $50,158                E                    $0                  $709
           Totals                                              $2,726,008                               $904 901              $290,807

  1
    Amount purchased does not include adjustments for recoveries received or expenses such as legal fees incurred after purchase. 

  2
    Recommended recovery amount. 

  3
    Amount not supported by documentation in the SBA file. 

  4
    Recovery recommendation made in this report. 


  Deficiency Type Legend:
      A. Equity Injection
      B. Use of Proceeds
      C. Collateral/Liquidation
      D. Eligibility/Origination
      E. Other Issues




                                                                     20 

APPENDIX IV. LOANS NEEDING RECOVERIES 

                                                                                       Purchase        Deficiency
             Loan                                                 Amount
 #                                                                                     Amount             Type
            Number
                                  Borrower             Disbursed      Purchased 1     Questioned      (See Legend)
 I                                                     $120,000        $102,489          $7,578             A
r-­
 2                                                     $200,000         $74,933           $624              B
r-­
 3       [Exemption 2, 4                  &   6]        $37,000         $16,785          $2,840             A
r-­
                                                        $40,545                          $4,746             A
~                                                                       $21,573
                                                       $258,000        $175,843          $1,273              B
r-2-­
  6                                                    $240,000        $163,535         $19,346             A
             Totals                                    $895,545        $555,158         $36,407

  1
      Amount purchased does not include adjustments for recoveries received or expenses such as legal fees incurred after
      purchase.

 Deficiency Type Legend:
         A. Collateral/Liquidation
         B. Other Issues
         C. Collateral/Liquidation
         D. Eligibility/Origination
         E. Other Issues




                                                           21 

APPENDIX V. MANAGEMENT RESPONSE 


                                   MEMORANDUM 


                                     April27, 2007 



TO:           Debra Ritt
              Assistant Inspector General for Auditing

FROM:         Janet A. Tasker
              Acting Director
              Office of Financial Assistance

SUBJ:         Response to Draft Audit Report on the Guaranteed Purchase Process

Thank you for the opportunity to review the draft audit report on SBA's guaranteed
purchase process. While we will address the specific recommendations made in the
report, we would like to offer the following overall comments as part of our response.

While we acknowledge that the centralization of the guaranty purchase process into the
Herndon National Guaranty Purchase Center (NGPC) could have been smoother, we
believe that much has been done since it was established in early 2004 to improve and
strengthen the process. We believe the report is misleading about the current state of
affairs at the Herndon NGPC as the loans reviewed were purchased two or more years
ago and a tremendous amount of progress has been made in the intervening
period. Nevertheless, given the critical internal control function the guaranty purchase
process serves and the dollars involved, we know we must continue to improve the
process and this is a significant priority for the Office of Financial Assistance.

Further, we find the comparisons of findings resulting from loans purchased in the period
from October 1, 2004 through May 31, 2005 (the first part ofFY 2005), when the Center
was just getting established with results and events in FY 2006 is inappropriate and
inconsistent and does not allow for fair and equitable comparisons and conclusions.
Different periods cannot be compared as the time periods are simply different and reflect
different conditions, situations, processes and activities. The FY 2006 erroneous
payment rate of 1.56% cannot be compared to the audit results which reflect guaranty
purchases in FY 2005. Similarly, the report speaks about staffing issues and turnover in
FY 2006, does not bear relationship to the staffing situation in FY 2005 when the loans
were actually reviewed at the Herndon NGPC.

We also disagree with the anecdotal comments provided in the report regarding the
management of the loan purchase guaranty process. It does not appear that these


                                            22 

APPENDIX V. MANAGEMENT RESPONSE 


comments were backed up by any audit findings and are simply a recitation of comments
made to auditors. Having production standards is an established means of measuring and
managing work. Production/performance standards do not translate into instructions not
to take time when needed to complete a purchase review. Similarly, stating a loan
officer's opinion of how long it should take to complete a purchase review without
supporting analysis of the workflow and related timelines involved in completing a
purchase is not a fair representation of the process requirements nor is it supported by
audit evidence.

Lastly, while the report states that a statistical sample of loans purchased was reviewed,
the 38% of the sample were Low Doc loans which does not reflect the nature of the 7(a)
portfolio. While the sample may have been intended to be a statistical sample, it resulted
in something that is not representative of SBA's portfolio of 7(a) loans.

Management's response to the recommendations contained in the report are provided
below. In addition, we are continuing to look at the specific details of individual loans
reviewed. When the review is completed, we will advise you of any significant issues
identified.

Recommendation 1: Seek recovery of $37,541 on the guarantees paid on the 6loans ·
listed in Appendix IV.

Response: NGPC will review OIG audit details on the 6 loans and make a determination
whether recovery is appropriate in each case.

Recommendation 2: Develop a plan to improve quality of purchase reviews performed
by the National Guaranty Purchase Center and ensure purchase decisions undergo
adequate supervisory review.

Response: As mentioned above, the loans reviewed in this audit were purchased
between October 1, 2004 and May 31, 2005. In the almost two years that have passed
since then significant changes implemented. These changes include the following:

In FY2007, the staffing structure at the NGPC was adjusted by adding Senior Loan
Specialists. This change allows for more direct, hands-on training of loan officers as well
as providing additional resources to perform the supervisory reviews mentioned in the
audit. The NGPC feels that the restructuring increases the Center's approval capacity to
an adequate level.




                                            23 

APPENDIX V. MANAGEMENT RESPONSE 


Also, as a result of the Administrator's initiative to increase throughput by 25%, the
Center, with the assistance of Six Sigma consultants, has undergone an extensive
reengineering of the entire Guaranty Purchase Division. The redesigned process includes
the following:

   • 	 In an effort to improve the quality of the guaranty purchase process and to
       standardize the documents sent by the lenders, the Center developed a set of self­
       guided Tabs to assist with the compilation of the purchase request package. These
       tabs guide the lenders step by step through the documents needed for a proper
       guaranty purchase review. These new Tabs were made available on the NGPC
       web site in early April and have been distributed to all district offices. Ongoing
       training sessions in the use of the Tabs and the documentation required for
       purchase is currently being scheduled for both our lending partners as well as
       district office staff. This new initiative to address document deficiencies in the
       purchase process will go a long way to improving the overall quality of the
       purchase reviews.

   • 	 Created a data base for lender deficiencies in package which will help identify
       problem areas and fix them. This information is being shared with the Office of
       Lender Oversight and the District Offices.

   • 	 All purchase packages are barcoded when they enter the door using the 98 file
       system. As the package moves through the process, it is scanned and its location
       is always known, eliminating the possibility of lost or separated packages.

   • 	 Administration Staff performs the initial intake function of the purchase packages
       and ordering of the loan files from the Servicing Centers to allow LSAs in the GP
       Division to make better use of their time assisting with the processing of guaranty
       purchase reviews.

   • 	 Purchase requests are processed by the date the package was received to ensure
       that the banks get service in the order they made the request.

Recommendation 3: Revise the purchase review template to require loan officers to list
supporting documentation relied upon when making their guarantee purchase decisions,
and ensure the template is "write-protected" to prohibit unauthorized modification.

Response: The Center feels that the existing 327 Action form is adequate to document
the purchase recommendation, legal concurrence and final approval. However, in an
effort to standardize the documents reviewed by the loan officers prior to purchase, the



                                           24 

APPENDIX V. MANAGEMENT RESPONSE 


Center has developed new Tabs for use by the lenders. In addition to being informative
and self-guided, they also require the lender to carefully review the Loan Authorization
itself and answer specific questions about required documentation. This enhanced system
should improve the overall quality of the purchase packages received as well as the
purchase reviews themselves. It will also make it much easier to track the supporting
documentation received from the lending partners.

Recommendation 4: Require lenders to submit certifications of compliance with
applicable laws, rules and regulations with each purchase demand.

Response: To enable lenders to participate in the 7(a) loan program, SBA requires the
execution of a Loan Guaranty Agreement (Deferred Participation), SBA Form 750
between the lender and SBA. This agreement sets out the terms and conditions of the
application, approval, closing, servicing and purchasing of 7(a) loans. Included in that
document is a requirement that the lender certify that the loans have been disbursed and
serviced in compliance with the agreement and all applicable rules and regulations. We
feel this certification addresses the recommendation.

Recommendation 5: Revise the sampling plan for calculating the rate of improper
payments in FY 2007 to ensure OMB sampling requirements are met.

Response: In coordination with OCFO, OFA developed a new sampling procedure for
the selection of purchases for IPIA review for FY 2007. The purchases to be reviewed
will be randomly selected by OCFO from all purchases made during the year-long period
that ended March 31, 2007.

Recommendation 6: Include in its A-123 report on management controls the level of
risk associated with the purchase review process and describe the risk in reporting its
estimate of improper payments in the Agency's budget.

Response: Management will work with the Senior Assessment Team to identify what is
most appropriate to include in the A-123 report on management controls.

Again, thank you for the opportunity to review the draft audit report on the guaranty
purchase process. Please let us know if you have any questions regarding our comments.




                                           25 

APPENDIX VI. AUDIT REPORT DISTRIBUTION 


Recipient                                                                                           No. of Copies 


Associate Administrator for Capital Access .................................................. 2 


General Counsel ...................................................................................... ....... 3 


Deputy General Counsel................................................................................. 1 


Office of the Chief Financial Officer 

Attention: Jeff Brown.................................................................................... 1 





                                                              26 

